DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General


      Review of U.S. Immigration and 

     Customs Enforcement’s Detainee 

            Tracking Process





            Office of Audits

OIG-07-08                  November 2006
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                          November 16, 2006

                                             Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the effectiveness of U.S. Immigration and Customs Enforcement (ICE)
policies and procedures to track the location of detainees and respond to public inquiries on detainee
whereabouts. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this report
will result in more effective, efficient, and economical operations. We express our appreciation to all
of those who contributed to the preparation of this report.




                                             Richard L. Skinner 

                                             Inspector General 

Table of Contents/Abbreviations



Executive Summary ......................................................................................................................1 


Background ...................................................................................................................................2 


Results of Audit ............................................................................................................................3 


   ICE Needs to Update DACS in a More Timely Manner ..........................................................3 

   Management Comments and OIG Analysis .............................................................................6 


Appendices
     Appendix A: Purpose, Scope, and Methodology...................................................................7 


     Appendix B: Management Comments ..................................................................................9 


     Appendix C: Delayed Data Entry Details............................................................................11 


     Appendix D: Major Contributors to this Report ...................................................................12 


     Appendix E: Report Distribution .........................................................................................13 


 Abbreviations
     CCA              Corrections Corporation of America 

     DACS             Deportable Alien Control System

     DETS             DACS Detention Summary         

     DHS              Department of Homeland Security 

     ICE              U.S. Immigration and Customs Enforcement 

     IEA              Immigration Enforcement Agent 

     OIG              Office of Inspector General 

     RCC              Regional Correctional Center 

     SPC              Service Processing Center 

                                                                                 Audit
OIG                                                                              Report
Department of Homeland Security
Office of Inspector General

   Executive Summary
                This report represents the results of our review of U.S. Immigration and
                Customs Enforcement’s (ICE) detainee tracking process. ICE is responsible for
                immigration investigations and detention and removal of illegal aliens. Our
                audit objective was to determine whether ICE had an effective system to track
                the location of detainees and respond to public inquiries.
                The detainee tracking system, for five of the eight ICE detention facilities
                tested, did not always contain timely information. At the five facilities, data for
                10% of the detainees examined were not recorded in the Deportable Alien
                Control System (DACS) within the first five days of detainment. ICE
                procedures stipulated that detainee data should be recorded in DACS as soon as
                possible, usually within two business days from the date of detainment.
                At six of eight ICE detention facilities tested, DACS and detention facility
                records did not always agree on the location of detainees, or contained
                information showing the detainee had been deported. Inaccurate detainee
                information reduces ICE’s ability to correctly identify the actual location of
                detainees and to verify that individuals have been detained. There is also the
                potential for ICE to under or over pay detention facilities because of incorrect
                data. At one detention facility, ICE overpaid the facility $9,620 for eight
                detainees that had been released. At the same time, ICE underpaid the detention
                facility $1,665 for two detainees that were being held.
                ICE had no formal policy regarding what information it would provide to
                anyone inquiring about detainees in their custody. However, the four field
                offices we visited and the eight detention facilities contacted indicated that they
                would confirm whether the detainee was held in their facility. Requests for
                more detailed information would be referred to ICE headquarters.
                We made three recommendations to ICE: (1) issue formal instructions to field
                offices requiring timely DACS entries and proper supervisory review, (2)
                perform daily/periodic reconciliations of DACS data, and (3) obtain a
                reimbursement of the $7,955 in ICE net overpayments. ICE concurred with the
                recommendations and will issue guidance to the field addressing timely DACS
                entries, supervisory reviews, and periodic reconciliations of DACS data. ICE
                will also work with the appropriate officials to recover the $7,955 overpayment.

                             Review of U.S. Immigration and Customs Enforcement’s 

                                            Detainee Tracking Process 


                                                    Page 1

Background
                           The U.S. Immigration and Customs Enforcement (ICE) is responsible for:

                           • 	 Identifying and removing all high-risk illegal alien fugitives;

                           • 	 Ensuring that those aliens who have already been identified as criminals
                               are expeditiously removed; and

                           • 	 Developing and maintaining a robust removal program with the capacity
                               to remove all final order cases, thus precluding growth in the illegal alien
                               population.

                           ICE secures bed space in detention facilities, and monitors those facilities for
                           compliance with national detention standards. Detainees are often transferred
                           from one facility to another for various reasons including medical, change of
                           venue, recreation, security issues, or other ICE needs. During fiscal year (FY)
                           2005, ICE detained in custody an average of 18,500 aliens per day and
                           formally removed 204,193 aliens from the United States.

                           ICE field offices use DACS to track detainees. DACS automates many of the
                           clerical control functions associated with the arrest, detention, and deportation
                           of illegal aliens. The system provides management information concerning
                           the status and disposition of individual cases, as well as statistical and
                           summary data of cases by type, status, and other attributes. DACS,
                           specifically the DACS Detention Summary (DETS), tracks the location of
                           detainees housed at Service Processing Centers (SPCs),1 contract detention
                           facilities,2 and Intergovernmental Service Agreements detention facilities
                           (local jails).

                           An ICE Immigration Enforcement Agent (IEA) updates DACS with the
                           required information when a detainee is taken into custody. IEAs, deportation
                           officers, and detention removal assistants, in addition to updating DACS for
                           detainee transfers to other facilities and deportations, may also update DACS
                           when a detainee is taken into custody. Supervisory IEAs also have access to


1
  ICE operated facilities located in Aguadilla, Puerto Rico; Batavia, New York; El Centro, California; San Pedro, 

California; El Paso, Texas; Florence, Arizona; Miami, Florida; and Los Fresnos, Texas.

2
  Private firm operated facilities located in Aurora, Colorado; Houston, Texas; Laredo, Texas; Seattle, Washington; 

Elizabeth, New Jersey; Queens, New York; and San Diego, California. 


                                          Review of U.S. Immigration and Customs Enforcement’s 

                                                         Detainee Tracking Process 


                                                                     Page 2

                         DACS and, at some locations, clerical staff and deportation officers have
                         access to the system.


      Results of Audit
                         ICE Needs to Update DACS in a More Timely Manner
                         DACS does not always contain accurate information3 on detainees. For 10
                         percent of the records examined (322 of 3,201) at five of eight sites, detainee
                         data was not recorded or updated in DACS within the first five days of
                         detainment or transfer. At six of eight sites, detainees were listed in DACS as
                         being in ICE custody when they were not, and the detention facilities where
                         they were being held were incorrect. We also identified approximately $9,620
                         in ICE overpayments and $1,665 underpayments to detention facilities. Field
                         office policies require recording detainee data in DACS as soon as possible,
                         usually within two business days. The field offices did not follow their
                         policies because detention officers did not receive notification or did not
                         update DACS when detainees were placed in custody or released. When
                         DACS is not updated, the statistical information obtained from DACS may be
                         inaccurate and individuals requesting information could be misinformed on
                         the whereabouts of detainees. Further, ICE could and has made incorrect
                         payments to detention facilities for detainee bed space.

                         DACS data for five of the eight detention facilities tested at the four ICE field
                         offices visited were not being updated in a timely manner. We reviewed
                         DACS records to determine if the book-in date was within five days of the
                         information entered in DACS. The number of records not updated within 5
                         days ranged from nearly 19% at Piedmont to 7% at McHenry. (See Table 1.)




3
 Information recorded in Deportable Alien Control System (DACS) for each detainee includes items such as alien
number, name, country of origin, book-in date, and detention facility.

                                        Review of U.S. Immigration and Customs Enforcement’s 

                                                       Detainee Tracking Process 


                                                                  Page 3

                               Table 1 

                      Timeliness of DACS Input 


         Detention Facility        DACS         More than    Percent
                                  Records      5 days after
                                               book-in-date
         Piedmont                        487              91     18.7
         Hampton Roads                   276              26      9.4
         Regional
         Correctional Center             829                79        9.5
         (RCC)
         Corrections
         Corporation of
         America (CCA)                 1,179               97         8.2
         McHenry County                  430               29         6.8
          Total                        3,201              322        10.1

At 6 of 8 detention facilities tested, 21 detainees were listed in the wrong
detention facility and 23 detainees who were not recorded in DACS had been
released. For example, at RCC, eight detainees were either listed in DACS at
the wrong detention facility or not listed in DACS even though they were in
custody. Also, at RCC, one detainee was deported in early January, but was
still in DACS as of the end of March 2006. Two other detainees were
deported more than four months before DACS was updated. At Hampton
Roads, two detainees were released in December 2005, but one was still listed
in DACS as of January and the other was listed until February 2006. One
detainee was released in November 2005 and still listed in DACS on January
31, 2006. A detainee from CCA was transferred to a Florida detention facility
in November 2005. He remained listed in DACS for CCA until April 2006.

Furthermore, in our limited testing of the DACS data, we identified $9,620 in
ICE overpayments and $1,665 in underpayments to the Piedmont detention
facility. Table 2 shows that the Piedmont detention facility overcharged ICE
for housing 8 detainees for 208 days, including charges for one detainee for
the months of December 2005 and January 2006, even though the detainee
was deported in November 2005.




            Review of U.S. Immigration and Customs Enforcement’s 

                           Detainee Tracking Process 


                                   Page 4

                                  Table 2 

                           Piedmont Billing Errors 


             Detainee       Number     Daily         Total
                            of Days    Rate        Overcharge
                       1            24 46.25            $1,110
                       2             8 46.25              $370
                       3            24 46.25            $1,110
                       4            28 46.25            $1,295
                       5            62 46.25            $2,868
                       6            26 46.25            $1,203
                       7            28 46.25            $1,295
                       8             8 46.25              $370
                   Total          208 46.25             $9,620

The Piedmont detention facility also failed to charge ICE for two detainees
who were in custody for 36 days. This resulted in a $1,665 undercharge.

There is no ICE policy requiring reconciliations; however, the field offices
visited have established their own policies. They record information on new
detainees or update information on transferred detainees on the day of the
arrival, or the next business day for detainees received at the facility after
normal working hours, on weekends, or on holidays. For example, entries for
detainees arriving after hours on a Friday evening could be delayed up to three
days. ICE officials stated that DACS should be reconciled to the detention
facility list on a regular basis. The El Paso and Chicago field offices
reconciled daily, while the Washington field offices reconciled weekly and
Phoenix monthly. ICE officials at three locations stated that they compare
DACS data to the number of detainees in custody per detention facility
records, such as billing documents, prior to approving detention facility bills
for payments. The fourth field office reconciled the number of detainees
billed to DACS without verifying detainee identities.

The field offices did not consistently follow these policies because of the
numerous detainee movements. In addition, IEAs responsible for entering
detainee data in DACS are not notified of detainee activity, i.e., aliens taken
into custody or transferred between facilities, performed by other ICE
personnel. At locations such as the contract facilities, there were a large
number of detainees and numerous moves between locations. The


             Review of U.S. Immigration and Customs Enforcement’s 

                            Detainee Tracking Process 


                                    Page 5

          reconciliations of detainees listed in DACS to those listed in detention facility
          records were not thorough enough to identify errors.

          We recommend that the Assistant Secretary for ICE:

          Recommendation #1: Issue formal instructions to field offices requiring
          timely DACS entries and proper supervisory review.

          Recommendation #2: Perform daily/periodic reconciliations and train staff
          responsible for verifying the accuracy of DACS records.

          Recommendation #3: Obtain a reimbursement of $7,955 for the net
          overpayments to the Piedmont detention facility.


Management Comments and OIG Analysis
          Management Comments to Recommendation #1

          ICE concurred with our recommendation and stated that it would issue
          guidance to all field offices and DRO staff requiring the detainee information
          be entered into DACS Detention Summary module within 24 hours of an
          alien’s placement in detention.

          Management Comments to Recommendation #2

          ICE concurred with our recommendation and stated that its issued guidance to
          the field will require reconciliation of jail bills and periodic review and
          oversight by supervisors.

          Management Comments to Recommendation #3

          ICE concurred with our recommendation and stated that it will work with the
          ICE Office of the Chief Financial Officer and the DRO Washington Field
          Office to obtain reimbursement for the $7,955 overpayment.

          OIG Comments and Analysis

          We consider Recommendations #1, #2, and #3 resolved but will remain open
          until implementation is complete.



                       Review of U.S. Immigration and Customs Enforcement’s 

                                      Detainee Tracking Process 


                                              Page 6

Appendix A
Purpose, Scope, and Methodology




                   The purpose of the audit was to determine whether ICE had effective policies
                   and procedures to track the location of detainees. The specific audit
                   objectives were to determine:

                   • 	 What method ICE used to manage and track the location of alien
                       detainees;
                   • 	 How accurately ICE managed and tracked the location of alien detainees;
                       and
                   • 	 What procedures ICE used to inform individuals whether a detainee is in
                       custody.

                   We also determined whether ICE had an effective system to respond to public
                   inquiries on the location of detainees in its custody.

                   The audit period covered the detainee tracking process from October
                   2004 to April 2006. To accomplish the objectives, we conducted fieldwork at
                   ICE headquarters in Washington, DC, and at field offices located in
                   Washington, DC; Chicago, IL; El Paso, TX; and Phoenix, AZ.

                   We reviewed policies and procedures, interviewed ICE personnel, and
                   reviewed documents and records as necessary. We performed the audit under
                   the authority of the Inspector General Act of 1978, as amended, and according
                   to generally accepted government auditing standards.

                   Service Processing Center Testing

                   We used different testing methods for the two Service Processing Centers
                   (SPCs) included in our sample. The SPCs are controlled and operated by ICE.
                   No bill for payment is submitted for reimbursement. The detainee expense is
                   a budgeted allocation. In addition, the facilities used different record retention
                   methods.

                   El Paso

                   We compared a random sample of 30 DACS entries from the month January
                   2006 (total DACS population 1,125) and 30 DACS entries from February 28,
                   2006, (total DACS population 745) to the I-203 forms (Order to Detain) and
                   other documentation in the alien file.


                                Review of U.S. Immigration and Customs Enforcement’s 

                                               Detainee Tracking Process 


                                                       Page 7

Appendix A
Purpose, Scope, and Methodology



                   We also selected 12 DACS entries from the month of January 2006 and 6
                   DACS entries from February 28, 2006, that may not have been entered in a
                   timely manner for comparison to daily DACS printouts.

                   Lastly, we compared facility body counts to DACS for those detainees held on
                   March 21, 2006.

                   Florence

                   We compared a random sample of 30 DACS entries from the month of
                   January 2006 (total DACS population 896) and 30 DACS entries from
                   February 28, 2006, (total DACS population 347) to the Florence logbook.

                   In addition, we compared the facility body counts to DACS for those
                   detainees held on April 11, 2006. For detainees that were on one list but not
                   the other, we consulted with ICE deportation officers to determine the
                   detainees’ correct location.

                   Non-Service Processing Center Testing

                   We made two comparisons, one for the month of January 2006, and the other
                   for February 28, 2006. We compared billing data provided by the detention
                   facilities, which included a list of detainees and the number of days they had
                   been housed at the facility, to the DACS data for each of the detention
                   facilities. For detainees that were on one list but not the other, we examined I
                   203 forms, bills from other detention facilities, and other documents, as
                   needed, to determine the actual location of the detainees.

                   Release of Detainee Information

                   We discussed the type of detainee information released to the public with both
                   ICE officials at the four field offices we visited and representatives from the
                   eight detention facilities we selected to test data. Although there is no formal
                   policies, ICE officials and the detention facility representatives said they
                   would advise us whether or not the detainee was held in their facility. If an
                   individual wanted any additional information, they would be directed to
                   contact ICE headquarters.




                                Review of U.S. Immigration and Customs Enforcement’s 

                                               Detainee Tracking Process 


                                                       Page 8

Appendix B
Management Comments




                      Review of U.S. Immigration and Customs Enforcement’s 

                                     Detainee Tracking Process 


                                             Page 9

Appendix B
Management Comments




                      Review of U.S. Immigration and Customs Enforcement’s 

                                     Detainee Tracking Process 


                                            Page 10

Appendix C
Delayed Data Entry Details




                    The table and chart below detail the time taken to enter detainee data into the
                    Deportable Alien Control System at the five facilities with significant delays
                    in data entry. We defined significant delays as above 5 percent.

                                    Entered                     All Delays Percent
                    FACILITY       within 5 5 to 7 8 to 14 Over 5 Days or Delayed 5
                             Sample days    days    days 14 Days Over       Days
                   Hampton
                   Roads       276   250     11       5     10      26       9.4
                   Piedmont    487   396     32      35     24      91      18.7
                   McHenry     430   401      5       8     16      29       6.8
                   RCC              829       750        0        13      66         79            9.5
                   CCA             1,179     1,082       4         89      4         97             8.2
                     Totals        3,201     2,879      52        150     120       322            10.1



                                           Detainee’s Data Entry Time

                                                                            5 to 7 days
                                                                               1.6%


                                                                                    8 to 14 days
                                                                                        4.7%

                       Entered within
                          5 days
                          89.9%                                                    Over 14 Days
                                                                                      3.8%




                                 Review of U.S. Immigration and Customs Enforcement’s 

                                                Detainee Tracking Process 


                                                       Page 11

Appendix D
Major Contributors to this Report



                    Chicago Field Office

                      Roberta N. Rickey, Audit Director
                      Brad Mosher, Supervisory Auditor
                      Larry Fugate, Auditor-in-Charge
                      Aldon Hedman, Staff Auditor
                      Sharleda Davis, Staff Auditor




                               Review of U.S. Immigration and Customs Enforcement’s 

                                              Detainee Tracking Process 


                                                     Page 12

Appendix E
Report Distribution


                      Department of Homeland Security

                         Secretary
                         Deputy Secretary
                         Chief of Staff
                         Deputy Chief of Staff
                         General Counsel
                         Executive Secretariat
                         Assistant Secretary, U.S. Immigration and Customs Service
                         Assistant Secretary for Public Affairs
                         Assistant Secretary for Policy
                         Assistant Secretary for Legislative and Intergovernmental Affairs
                         Acting Chief Privacy Officer
                         DHS GAO OIG Liaison
                         ICE Audit Liaison


                      Office of Management and Budget

                         Chief, Homeland Security Branch 

                         DHS OIG Budget Examiner 


                      Congress

                         Congressional Oversight and Appropriations Committees, as appropriate




                                 Review of U.S. Immigration and Customs Enforcement’s 

                                                Detainee Tracking Process 


                                                       Page 13

                     Appendix F
                     Report Distribution




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL STOP
2600, Attention: Office of Investigations – Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528; fax the complaint to (202) 254-4292; or
email DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each
writer and caller.
